                    Department of Justice
                         United States Attorney Stephen R. Wigginton
                                  Southern District of Illinois

______________________________________________________________________________

FOR IMMEDIATE RELEASE                                                     CONTACT: James L. Porter
WEDNESDAY, OCTOBER 3, 2012                                                 PHONE: (618) 628-3700
WWW.JUSTICE.GOV/USAO/ILS/

        CAHOKIA WOMAN PLEADS GUILTY TO SOCIAL SECURITY FRAUD

       Stephen R. Wigginton, United States Attorney for the Southern District of Illinois, announced
today that on October 3, 2012, Jacqueline L. Burrell, 45, of Cahokia, Illinois, pled guilty in federal
district court to Concealment of a Material Fact from the Social Security Administration (SSA) as
charged in a one-count indictment returned on June 5, 2012. This charge carries a statutory
maximum possible punishment of up to five years in prison, a fine of up to $250,000, a period of
supervised release of up to three years, and the payment of a $100 special assessment. Sentencing
is scheduled for January 25, 2013, at 10:00 a.m.
       During her plea, Ms. Burrell admitted that from on or about January 1, 2003, and continuing
until on or about February 29, 2008, she continued to receive Supplemental Security Income Benefits
payments for her children. Burrell had been acting as the representative payee for her minor
children, but she failed to disclose, and concealed, the fact that the children no longer resided with
her in order to continue to receive payment on their behalf. In reality, the minor children resided
with their father in California. The United States indicates that the amount of loss to SSA is
$52,836.

       The investigation was conducted by the Social Security Administration’s Office of Inspector
General and is being prosecuted by Assistant United States Attorney Liam Coonan.


       If you suspect or know of an individual or company that is committing fraud against any Social
       Security Administration (SSA), you may report this to the SSA Office of Inspector General by calling
       1.800.269.0271.

                                                      ###
